           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:    ACTION: Quality Control Review                        Date:   December 19, 2003
            of Audited Financial Statements
            for Fiscal Years 2003 and 2002, FAA
            QC-2004-008
                                                                  Reply
                                                                    To
  From      Kenneth M. Mead                                        Attn   JA-20:x61496
                                                                    Of
            Inspector General


    To      The Secretary
            Federal Aviation Administrator

           The audit of the Federal Aviation Administration’s (FAA) Financial Statements as
           of and for the years ended September 30, 2003, and September 30, 2002, was
           completed by KPMG LLP (KPMG) of Washington, D.C. (See Attachment.) We
           performed a quality control review of the audit work to determine compliance with
           applicable standards. These standards include the Chief Financial Officers Act;
           Government Auditing Standards; and Office of Management and Budget
           Bulletin 01-02, Audit Requirements for Federal Financial Statements.

           The KPMG audit report presented an unqualified opinion, also known as a “clean”
           opinion, on the FAA financial statements, and we concur with this opinion. The
           report presented no material internal control weaknesses but did present the
           following three reportable internal control conditions:

                1. Controls over property, plant, and equipment;
                2. Process for estimating environmental liabilities; and
                3. Information technology controls over FAA and third-party systems and
                   applications.

           The report also identified instances of noncompliance with the Federal Financial
           Management Improvement Act of 1996, and the Anti-Deficiency Act, as amended.

           KPMG made eight recommendations for corrective actions. We agree with the
           KPMG recommendations. In accordance with the Department of Transportation
           Order 8000.1C, we would appreciate receiving your written comments within
                                                                               2


15 days. If you concur with the recommendations, for each recommendation,
please indicate the specific actions taken and planned, along with estimated
completion dates for planned actions.

In our opinion, the audit work performed by KPMG complied with applicable
standards. Therefore, we are not making any additional recommendations.

We appreciate the cooperation and assistance of FAA and KPMG representatives.
If we can answer any questions, please call me at (202) 366-1959, or Ted Alves at
(202) 366-1496.

Attachment


                                       #
